                         National Archives and Records Administration
                                                                                            8601 Adelphi Road
                                                                           College Park, Maryland 20740-6001


Date 	        April 29, 2010
Replyto

Attn of 	     Office ofInspector General (OIG)

Subject 	    Advisory Report No. 10-11, Inadequate Contingency Planning for the Electronic Records
             Archives System

To 	         David S. Ferriero, Archivist of the United States (N)

             The purpose ofthis Advisory Report is to notify you that Electronic Records Archives (ERA)
             management officials have not adequately planned for a long-term service disruption or
             outage should the ERA System and its primary site become unavailable. Specifically, our
             review found: (1) the ERA Business Impact Analysis (BIA)·is incomplete and lacks current
             system information; (2) it is unknown if the ERA System (in its entirety) can be successfully
            restored from backup tapes; and (3) there is not an alternative backup site. The ERA is a
            major application system being designed to store and manage the National Ar~hives and
            Records Administration's (NARA) electronic records and to manage the lifecycle of paper
            records and other holdings. The ERA System is housed at the Allegany Ballistics Lab in
            Rocket Center, WV. However, without adequate contingency planning; ERA officials lack
            assurance the ERA System can be successfully restored at an alternative location should its
            primary site be unavailable. Such a significant risk severely limits the reliability ofthe
            system. In addition, as the system continues to grow in terms of the number of federal
            agency users and the volume of data ingested; effective contingency planning becomes even
            more critical.

            Information technology (IT) systems are vulnerable to a variety of disruptions, ranging from
            mild (e.g., short-term power outage, disk drive failure) to severe (e.g., equipment destruction, ,
            fire) from a variety of sources such as natural disasters to terrorists actions. Contingency
            planning refers to interim measures to recover IT services following an emergency or system
            disruption. Interim measures may include the relocation ofIT systems and operations to an
            alternative site, the recovery of IT functions using alternative equipment, or the performance
            of IT functions using manual methods.

            Business Impact Analysis

         According to the National Institute of Standards and Technology Special Publication 800-34
         entitled "Contingency Planning Guide for Information Technology Systems", the BIA is a
         key step in the contingency planning process which helps to identify and prioritize critical IT
         systems and components. The purpose of the BIA is to correlate specific system components
         with the critical services that they provide, and based on that information, to characterize the
         consequences of a disruption to the system components. The BIA is central to determining
         what recovery strategies should be implemented to ensure availability. Conducting this type
         of analysis requires input from the users and business process owners as well as other
             associated groups. Critical resources for accomplishing the IT system's mission(s) should be
            identified through data calls with these points of contact. Possible impacts attributed to the
            unavailability ofthese resources over time and across associated systems and processes can
            then be determined, leading to sequencing the recovery ofthe resour'ces based on potential
            impacts. Thus, the resource requirements and recovery prioritization will form the basis for
            developing appropriate contingency solutions.

           Our review of the ERA BIA found that it is incomplete and lacks current information. For
           example, there.are no points of contact listed along with their respective roles, no recovery
           priorities, and no specific resources listed with the respective allowable outage time for each.
           The BIA was developed in 2008, prior to the Executive Office of the President (EOP) data
          archive being substantially popUlated and prior to implementation of the Congressional data
          archive. As the ERA System is evolving, the recovery priorities may need to be redefined
          and reprioritized in order to reflect the needs of the current stakeholders. In addition, there
          are no specific resources listed with the corresponding allowable outage time. Some
          functions are listed under resources such as Support for Ingest, Search, and Access of
          Presidential Records. However, no specific resources (e.g. servers) are listed. According to
          an ERA official, the ERA Program Management Office has designated a team to review the
          current BIA. He said the team is made up ofpersonnel from multiple disciplines within the
          ERA Program Office and business representation. Without a complete and current BIA,
          ERA management lacks an effective component of the contingency planning process.

          Backups

          Although incremental backups of ERA data are done daily, the ERA System, in its entirety,
          has not been restored from backup tapes. Without adequate testing, it is unknown if the ERA
          System can be restored in a timely manner from backup tapes. ERA Program Office officials
          acknowledged that while limited restoration has been performed in testing and production,
         the restorability of every componene has not been demonstrated. ERA officials are
         confident the management platform of ERA can be restored successfully and that the ERA
         Base and Congressional data archives are recoverable. However, ofparticular concern is the
         EOP data archive because it is mirrored to an onsite replicated archive. Program officials
         feel the EOP data can be recovered from the replica, but have serious concerns about the
         ability to restore the EOP data archive from tape if the replica was not available.

         Alternative Backup Site

        In 2006, an Interagency Agreement (IAA) was established between NARA and the
        Commander, Naval Meteorology and Oceanography Command, to lease space in Stennis,
        Mississippi for an alternative processing site for the ERA System. However, this site was
        never popUlated with hardware and software to be used as a backup site. A subsequent OIG
        report will be issued on this IAA and the lack of an alternative processing site for the ERA
        System should the primary processing location be unavailable.


1 The ERA platform can be viewed as a management platform for mUltiple data archives such as ERA Base,EOP, and
Congressional. See Attachment A for a description of these data archives.



                                                       2

     To adequately plan for a long-term service disruption, ERA officials need to update the BIA
     with more complete and current information, and determine if the ERA System (in its
     entirety) can be successfully restored from tapes at an alternative backup site. We will
     continue to monitor the contingency planning process for the ERA System and report back to
     you on a periodic basis.

      This project was part of our on-going effort to review NARA's development and
     implementation ofthe ERA. Our review effort consisted primarily ofreviewing applicable
     ERA documentation such as the ERA BIA, System Security Plan, Contingency Plan, the IAA
     with the Commander, Naval Meteorology and Oceanography Command, ERA FY2010
     Expenditure Plan; and interviews with responsible ERA Program Office officials. We
     conducted this performance audit in accordance with generally accepted government auditing
     standards. Those standards require that we plan and perform the audit to obtain sufficient,
     appropriate evidence to provide a reasonable basis for our findings and conclusions based on
     our audit objectives. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objectives.

    If you have any questions concerning the information presented in this report, please e-mail
    Mr. James Springs or me, or call us at extension 73000.


(/
1/
    //;/""-:?/ ' /
                ?/,        /
                               /'
                                    /

V   Paul Brachfel~/'
    Inspector General


    cc: NH (M. Morphy)
~   .'


                                                                                                Attachment A



                                       Descriptions of the ERA Data Archives




         ERA Base: The ERA Base provides basic electronic records management capability for NARA
         legacy data and records and for current transactions of other federal agencies. The Base system
         enables agencies to create, modify, and delete Records Disposition Schedules, Transfer Requests,
         and Legal Transfer Instruments. The system also allows agencies to transfer and ingest electronic
         records.


         EOP: Provides for the rapid ingest, search, and retrieval of Executive Office ofthe President
         electronic records from the George W. Bush Administration.


         Congressional: The system provides for ingest, storage, and retrieval for transfers of Congressional
         electronic records.




                                                        4

